            ...   *VKI,     ,,,


    *..+’                         �




-4L
.
                                      DEPARTMENT    OF HEALTH   & HUMAN   SERVICES      Office   of Inspector   General

:2
                                              .—
 %
   ‘*4 ,,4,0
                                                                                        Memorandum
                          Date        Nov   41994
                          From	
                                      June Gibbs Brown
                                      Inspector Genera            8
                          ‘Ubjec[

                                OIG Final Rep t: Medicaid Overpayments for Post-Partum Care
                                to Undocumented
                                             P’  iens,” OEI-O7-95-OOO1O
                          To	
                                      Bruce C. Vladeck
                                      Administrator
                                      Health Care Financing Administration


                                      The purpose of this memorandum is to alert you to information

                                      we uncovered during a review of the Systematic Alien

                                      Verification for Entitlements (SAVE) program. We have found

                                      evidence that some State agencies are making improper payments

                                      for pregnancy services delivered to undocumented aliens. This

                                      information has been shared with HCFA staff, who have already

                                      taken some action on the information we have provided.


                                      Backcmound


                                      While a number of sections of Title XIX define eligible

                                      populations for medical assistance generally, and pregnancy

                                      related services specifically, Section 1902(a) qualifies such

                                      language by stating:

                                            ItNotwithstanding paragraph (10)(B) or anY other Provision
                                            of this subsection, a State Plan shall provide medical

                                            assistance with respect to an alien who is not lawfully

                                            admitted for permanent residence or otherwise permanently

                                            residing in the United States under color of law only in

                                            accordance with section 1903(v)”.


                                      Section 1903(v) states that unrestricted Medicaid payments can

                                      be made for those aliens lawfully admitted for permanent

                                      residence or are permanently residing in the United States

                                      under color of law. For those aliens who are not lawfully

                                      admitted to the United States, known as undocumented aliens,

                                      Medicaid payments can be made for an emergency condition only.

                                      The statute defines “emergency medical condition~’ as a medical

                                      condition (including emergency labor and delivery) which

                                      manifests itself by acute symptomsof sufficient severity

                                      (including severe pain) that the absence of immediate medical

                                      attention could reasonably be expected to result in:


                                            (A) placing the patient’s health in serious jeopardy

                                            (B) serious impairment to bodily functions, or

                                            (C) serious dysfunction to any bodily organ or part.

Page   2   -   Bruce C. Vladeck

Under such a definition, Federal financial participation (FFP)

is not available for routine prenatal or post-partum care for

undocumented aliens.


Current Studv


We are currently conducting a review of the cost-effectiveness

of the SAVE program, which is administered by the Immigration

and Naturalization Service. States are required to use SAVE to

verify the immigration status of alien applicants for Aid to

Families with Dependent Children and Medicaid. Our inspection

included a review of SAVE in four States: California, Florida,

Illinois, and Texas.


As part of our review, we analyzed a sample of client case

files in each State to determine if SAVE had identified clients

who had applied for benefits but were not eligible because of

their immigration status. The results of this review will be

detailed in a full report on the cost-effectiveness of SAVE

which will be issued later in the year.


Findinas


During the course of our study, we were informed by county case

workers in California that the Medi-Cal (Medicaid) program

covers prenatal and post-partum care for undocumented aliens.

TO follow up on this information, we contacted the California

Department of Health Services, which administers Medi-Cal. We

requested a written response to questions we submitted to them

concerning coverage of pregnancy related services for

undocumented aliens.


The Department responded that California does not cover

prenatal care for undocumented aliens under the Federal/State

portion of the Medi-Cal program. Prenatal care for eligible

undocumented aliens is provided under a State only financed

program. However, the Department stated that California does

cover post-partum care for undocumented aliens under the

Federal/State financed program.


Upon receipt of this information from California, we contacted

staff in the HCFA Medicaid Bureau to confirm our conclusion

that the State erred in covering routine post-partum care for

undocumented aliens under the Medi-Cal program. We sent HCFA

the response from the California Department of Health Services,

as well as a summary of their Medi-Cal Manual which addresses

coverage of pregnancy related services. We also forwarded a

copy of the Illinois De~artment
                       .        of Public Aid Medicaid

instructions to their counties concerning coverage of pregnancy

related services, which seemed to represent a similar

interpretation of the law.

Page 3 - Bruce C. Vladeck


The HCFA staff responded that it appeared that both California

and Illinois were making incorrect payments based on their

State Medicaid policies. In subsequent conversations between

HCFA central office staff, regional staff, and State of

California staff, State officials admitted that erroneous

Federal Medicaid costs have been claimed based upon their

incorrect interpretation and issuance of State policy

describing coverage of post-partum care for undocumented

aliens. The HCFA also contacted its regional staff for the

State of Illinois, where we found evidence of a similar

problem.


We have contacted Florida and Texas, the other two States in

our sample. It appears they are following the intent of the

law and are not paying for routine pregnancy services for

undocumented aliens.


Recommendation


The HCFA staff has verbally informed us they intend to issue a

notice to all of their regional offices to assure that Federal

Medicaid funding is claimed only for emergency labor and

delivery services provided to pregnant undocumented aliens. We

support this clarification in procedure and would appreciate

receiving a copy of the notice.


We further suggest, in addition to clarifying policy, that HCFA

systematically contact all States to determine where

overpayments may have been made for pregnancy related care for

undocumented aliens because of confusion in State policy.

Based on the information collected through this review, HCFA

should initiate recoveries. We also request that HCFA notify

us of the total overpayments identified, and the total

recovered.


Should you have any questions or comments concerning this

memorandum or the results of our review, please do not hesitate

to contact me or George Grob, Deputy Inspector General for

Evaluation and Inspections, or have your staff contact Penny

Thompson at (410) 966-3138.

